Rfclpk

j_ki

the

£>^preia£. Cxxjg-4 q-t fke, U>oi\ec\ 5\p\e,?~i
SoprerA^ Coor-'V of -j-hg Duvteci &WVs^>

ftfrlpK F. E^po^W i
Ct>$e

PttvUoue,^

[. JiHAkpr"

ft. m^-o <vft Sopn? r^N 0 Csu )c\

mo-\ Ca-ck

\/i

an -pays PR.

An2-<aN>& Cour\ of APpcMS

£AtAe, of Ar\2o«^3

—&&>&*—

MO ^ 1 Cft -Cfc 15-OQ^t ~ CKfgp-k Af?p&fi\
KjO-\ (LA-CA kO~oi43 ffcPc
Supg,Clo^ CooC\- of fiot-ot-AA" f^oco9& Cootof/
Cpoi3-W55-O0\ pc-f^
------ C^QiH^-POA-S-V-^r-ao^—gOJL--------------------

_ /■ (vJrAjrf CerV)o^M^
,
nippt^vr^BSKxt^^l ,

\

~

6 Me

TFC- Pc^mo^c^ Rp>(pk F, £<,^o-5>\W hfrb SubwMeA t Copy o\ Ey^tVAs
towWrexMH ikroo^k'^^ by U>S< fAfi\\ \4&b®q ta 4K ClfcrVc of-V^e
^w>\j\g,(^ SWW^> Sop^et^c CoocAs

OaVc

i In l^i

be Tvlcc^ Amp D<sirefc’oVgS 4o ftlA PAfWs •

by

folpk F Fsffo^y\ o
8y(kndte>

—REGEW&B
—MN-2-2--2021CLERK
SUPREME-COURT ilrs~

Appcw dik*® H.

; (km^>V'I

✓*
?

Supreme Court
STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3306

JANET JOHNSON
Clerk of the Court

November 13, 2020

RE:

STATE OF ARIZONA v RALPH FRANK ESPOSITO JR
Arizona Supreme Court No. CR-20-0233-PR
Court of Appeals, Division One No. 1 CA-CR 20-0143 PRPC
Maricopa County Superior Court No. CR2014-001312-001

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on November 12, 2020, in regard to the abovereferenced cause:
ORDERED: Petition for Review = DENIED.

FURTHER ORDERED: Supplemental Cross-Petition for Review =
DENIED.
A panel composed of Vice Chief Justice Timmer, Justice Bolick,
Justice Gould and Justice Lopez participated in the
determination of this matter.
Janet Johnson, Clerk
TO:
Michael O'Toole
Andrea L Kever
Ralph Frank Esposito Jr., ADOC 293561, Arizona State Prison,
Winchester Unit
Tucson
Amy M Wood
ig

SUPREME COURT OF ARIZONA
STATE OF ARIZONA,

)

Respondent,

)
)
)
)

v.

Arizona Supreme Court
No. CR-20-0233-PR
Court of Appeals
Division One
No. 1 CA-CR 20-0143 PRPC

RALPH FRANK ESPOSITO, JR.,
)
Petitioner. )
)

Maricopa County
Superior Court
No. CR2014-001312-001

)

FILED: 11/24/2020
ORDER
2020,

On November 12,

the Court denied Petitioner's

"Petition

for Review" and "Supplemental Cross-Petition for Review." On November
20,

2020,

Petitioner Esposito filed a "Petition for Rehearing" which

this

Court treated as

with

Arizona

Rules

of

a motion
Criminal

for reconsideration.
Procedures

Rule

In accordance

31.20(f),

permitted by specific order of the appellate court,

unless

no party shall

file a motion for reconsideration of an order denying a petition for
review. Therefore,
IT IS ORDERED dismissing Petitioner's Motion for Reconsideration.
7“

DATED this 24th day of November, 2020.

/S/
JAMES P. BEENE
Duty Justice
TO:
Michael O'Toole
Andrea L Kever
Ralph Frank Esposito Jr., ADOC 293561, Arizona State Prison, Tucson
Winchester Unit
Amy M Wood
ga

d\y^ (M)
NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
STATE OF ARIZONA, Respondent,
v.
RALPH FRANK ESPOSITO, JR., Petitioner.
No. 1 CA-CR 20-0143 PRPC
FILED 6-30-2020
Petition for Review from the Superior Court in Maricopa County
No. CR2014-001312-001
The Honorable Peter A. Thompson, Judge
REVIEW GRANTED; RELIEF DENIED
COUNSEL
Maricopa County Attorney's Office, Phoenix
By Andrea L. Kever
Counsel for Respondent
Ralph F. Esposito Jr., Tucson
Petitioner

[\ppiuAfx ft F
STATE v. ESPOSITO
Decision of the Court

MEMORANDUM DECISION
Presiding Judge Paul J. McMurdie, Judge Jennifer B. Campbell, and Vice
Chief Judge Kent E. Cattani delivered the following decision.

PER CURIAM:
Petitioner Ralph F. Esposito, Jr. seeks review of the superior
1fl
court's order denying his petition for post-conviction relief, filed pursuant
to Arizona Rule of Criminal Procedure 32.1. This is Esposito's fourth
petition.

P

Absent an abuse of discretion or error of law, this court will
not disturb a superior court's ruling on a petition for post-conviction relief.
State v. Gutierrez, 229 Ariz. 573, 577, ]f 19 (2012). It is the petitioner's burden
to show that the superior court abused its discretion by denying the petition
for post-conviction relief. See State v. Poblete, 227 Ariz. 537, 538, 1 (App.
2011) (petitioner has burden of establishing abuse of discretion on review).
We have reviewed the record in this matter, the superior
1f3
court's order denying the petition for post-conviction relief, and the petition
for review. We find the petitioner has not established an abuse of discretion.
We grant review but deny relief.1

AMY M. WOOD • Clerk of the Court
FILED: AA

1
We also deny Esposito's motion, dated June 15, 2020, to compel
production of materials created by a former attorney and to depose another
former attorney.
2

a

yr

>4

Clerk of the Superior Court
-pjjg-g

02/10/2020 8:00 AM

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR2014-001312-001 DT

02/07/2020

CLERK OF THE COURT
C. Curley
Deputy

HONORABLE PETER A. THOMPSON

STATE OF ARIZONA

JEFFREY LEE SPARKS

v.
RALPH FRANK ESPOSITO JR. (001)

RALPH FRANK ESPOSITO JR.
#293561 ASPC TUCSON/WINCHESTER
UNIT
PO BOX 24401
TUCSON AZ 85734
COURT ADMIN-CRIMINAL-PCR
JUDGE FOX
JUDGE THOMPSON

RULE 32 PROCEEDINGS DISMISSED
Pending before the Court are:
•

Defendant’s Notice of Request for Post-Conviction Relief filed on December 16,
2020,

•

“Motion for Extension of Time by Petitioner impropria (sic) persona” filed on
January 23, 2020,

•

“Show Cause Why Current Rule 32 Proceedings Shall Not Be Treated as the
Original Rule 32 After Assignment Judge Errors in a Premature Ruling before Rule
32 Management Order for Discovery is Obtained Thereby Depriving Petitioner
Esposito Due Process Rights on Appeal” filed on January 27, 2020, and

Docket Code 167

Form R000A

Page 1

T

--

;?

r ‘

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR2014-001312-001 DT

•

02/07/2020

“Show Cause Why a Motion Notice for Change of Assignment Judge Karen L.
O’Connor Due too (sic) Conflict of Interest Shall Not be Granted and/or Recusal
by Assignment Judge Karen L. O’Connor by Petitioner Esposito (impropria (sic)
persona)” filed on January 27, 2020.

This is Defendant’s fourth Rule 32 proceeding in CR2014-001312-001 and his second Rule
32 proceeding in CR2013-442655-001. As a preliminary matter, the Court finds that all charges in
CR2013-442655-001 were dismissed on the prosecution’s motion. Furthermore, the recusal
motion is unnecessary and moot due to Judge O’Connor’s retirement.
In CR2014-001312-001, a jury found Defendant guilty of one count of theft of means of
transportation, a class 3 felony; and two counts of kidnapping, both class 2 felonies and one a
dangerous crime against children. Defendant represented himself at trial. On August 8, 2014, the
Court entered judgment and sentenced Defendant to mitigated prison terms, including concurrent
2.5- and 4-year terms and a consecutive 10-year term. He received 337 days of presentence
incarceration credit for the concurrent terms. On direct appeal, Division One rejected Defendant’s
arguments concerning: (1) the denial of a mistrial, (2) undiagnosed radiation poisoning of
Defendant’s brain, (3) the 10-year kidnapping sentence in violation of his Eighth Amendment
rights, (4) a discrepancy between the oral pronouncement of Defendant’s sentence and the hearing
transcript, and (5) a witness’s competency to testify. The appellate court affirmed his convictions
and sentences, issuing its order and mandate on June 3, 2016. State v. Esposito, 1 CA-CR 15-0122
(App. Nov. 19, 2015) (mem. filed). His previous Rule 32 proceedings were unsuccessful.
A. Rule 32.1(a) Claims
In his current submission, Defendant contends that his convictions and sentences were
obtained in violation of his constitutional rights, thereby entitling him to Rule 32.1(a) relief.
Specifically, Defendant is claiming that he received ineffective assistance of counsel. (Notice at
2) In addition, he contends that the sole eyewitness committed peijury. (Id. at 3) Because
Defendant raised peijury and ineffective assistance issues in the previous Rule 32 proceedings,
relief on those grounds is precluded. See Ariz. R. Crim. P. 32.2(a)(2). To the extent that he is
raising new Rule 32.1(a) claims, relief is still precluded. See Ariz. R. Crim. P. 32.2(a)(3); State v.
Spreitz, 202 Ariz. 1, 2, 4, 39 P.3d 525, 526 (2002) (“Our basic rule is that where ineffective
assistance of counsel claims are raised, or could have been raised, in a Rule 32 post-conviction
relief proceeding, subsequent claims of ineffective assistance will be deemed waived and
precluded.”) (emphasis in original). Furthermore, Defendant has no cognizable claim of ineffective
assistance against advisory counsel. See State v. Russell, 175 Ariz. 529, 534-35, 858 P.2d 674,
679-80 (App. 1993).

Docket Code 167

Form R000A

Page 2

V

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
02/07/2020

CR2014-001312-001 DT

In addition, Defendant complains of an “unauthorized and premature ruling” regarding his
first Rule 32 proceeding. (Notice at 3) He elaborates on this claim in the “Show Cause” filing
concerning the allegedly premature ruling. This Court dismissed Defendant’s earlier Rule 32
proceedings in both cases in an order filed on October 1, 2018. The Arizona Court of Appeals
then granted review and denied relief, issuing the order and mandate on Nov. 13, 2019. State v.
Esposito, 1 CA-CR 18-0716 PRPC (App. Feb. 21, 2019) (mem. filed). That decision is final.
B. Rule 32.1(e) Claim
Equally unavailing is Defendant’s claim that newly discovered and material facts would
have changed the convictions or sentences under Ariz. R. Crim. P. 32.1(e). (Notice at 2) Rule
32.1(e) claims “are not subject to preclusion under Rule 32.2(a)(3).” Ariz. R. Crim. P. 32.2(b).
Nevertheless, the Court may summarily dismiss if Defendant fails to “provide sufficient reasons
why the defendant did not raise the claim in a previous notice or petition, or in a timely manner.”
Id.
“The relevant inquiry for determining whether the petitioner is entitled to an evidentiary
hearing is whether he has alleged facts which, if true, would probably have changed the verdict or
sentence.” State v. Amaral, 239 Ariz. 217, 220, 11, 368 P.3d 925, 928 (2016) (emphasis in
original). To put it another way, Defendant must show that the facts were discovered after trial
although existed before trial; the facts could not have been discovered and produced at trial or on
appeal through reasonable diligence; the facts are neither solely cumulative nor impeaching; the
facts are material; and the facts probably would have changed the verdict or sentence. State v.
Saenz, 197 Ariz. 487, 489, f 7,4 P.3d 1030,1032 (App. 2000), see also Ariz. R. Crim. P. 32.1(e).
“Evidence is not newly discovered unless it was unknown to the trial court, the defendant, or
counsel at the time of trial and neither the defendant nor counsel could have known about its
existence hv the exercise of due diligence.” Saenz, 197 Ariz. at 490, If 13, 4 P.3d at 1033.
Defendant’s Rule 32.1(e) claim concerns “newly discovered factual documents” and “evidence of
perjury of sole eyewitness,” which Defendant received in 2019. (Notice at 3) According to
Defendant, the evidence could result in his acquittal. (Id.)
The Court finds Defendant’s Rule 32.1(e) claim is not colorable. Conclusory statements
do not support post-conviction relief. Defendant supplies no facts to enable the Court to evaluate
whether the evidence existed at trial or whether Defendant pursued it with reasonable diligence.
But the main problem is that Defendant fails to adequately explain why this information is so
material and non-cumulative that it entitles him to post-conviction relief.
In sum, Defendant fails to state a claim for which relief can be granted in a successive
Rule 32 proceeding. Defendant must assert substantive claims and adequately explain the
Docket Code 167

Form R000A

Page 3

/
/
/
/

;;

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR2014-001312-001 DT

02/07/2020

reasons for their untimely assertion. Ariz. R. Crim. P. 32.2(b). He has failed to meet this
standard.
With regard to the motion for extension, the Court finds no basis for the filing. In any
case, the assignment Minute Entry was rescinded in a Minute Entry filed in CR2013-442655-001
on January 21, 2020.
IT IS THEREFORE ORDERED dismissing Defendant’s Notice of Request for PostConviction Relief pursuant to Ariz. R. Crim. P. 32.2(b) and 32.11(a) in CR2014-001312-001 and
CR2013-442655-001.
IT IS FURTHER ORDERED denying the request for appointment of counsel.
IT IS FURTHER ORDERED denying the “Motion for Extension of Time by Petitioner
impropna (sic) persona,” “Show Cause Why a Motion Notice for Change of Assignment Judge
Karen L. O’Connor Due too (sic) Conflict of Interest Shall Not be Granted and/or Recusal by
Assignment Judge Karen L. O’Connor by Petitioner Esposito (impropria (sic) persona),” and
“Show Cause Why Current Rule 32 Proceedings Shall Not Be treated as the Original Rule 32
After Assignment Judge Errors in a Premature Ruling before Rule 32 Management Order for
Discovery is Obtained Thereby Depriving Petitioner Esposito Due Process Rights on Appeal.”
IT IS FURTHER ORDERED denying all other requests for relief.

Dated: 02/07/2020
Honorable Peter A. Thompson
Judge of the Superior Court

Docket Code 167

Form R000A

Page 4

t

Ap
Clerk of the Superior Court
Filed
03/02/2020 8:00 AM

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR2014-001312-001 DT
CR2013-44265 5-001 SE

02/27/2020

CLERK OF THE COURT
C. Curley
Deputy

HONORABLE PETER A. THOMPSON

STATE OF ARIZONA

TPC. APPEALS COUNTY ATTORNEY

v.
RALPH FRANK ESPOSITO JR. (001)

Pelt OiSm.si OtJ

7\ao

RALPH FRANK ESPOSITO JR.
# 293561 ASPC TUCSON WINCHESTER
P O BOX 24401
TUCSON AZ 85734
COURT ADMIN-CRIMINAL-PCR
JUDGE THOMPSON

RULE 32 PROCEEDINGS - Motion For Reconsideration

Pending before the Court is Defendant’s Motion For Reconsideration filed February 21.
2020. The 27 page motion with 48 pages of attachments does not establish a basis to reverse or
alter the Court’s order dismissing Defendant’s fourth Rule 32 proceeding in CR2014-001312-001
and his second Rule 32 proceeding in CR2013-442655-001. Therefore,
IT IS THEREFORE ORDERED denying Defendant’s Motion For Reconsideration of the
dismissal of Defendant’s Notice of Request for Post-Conviction Relief pursuant to Ariz. R. Crim.
P. 32.2(b) and 32.11(a) in CR2014-001312-001 and CR2013-442655-001.
IT IS FURTHER ORDERED denying reconsideration of the denial of Defendant’s
“Motion for Extension of Time by Petitioner impropria (sic) persona,” “Show Cause Why a
Motion Notice for Change of Assignment Judge Karen L. O’Connor Due too (sic) Conflict of
Interest Shall Not be Granted and/or Recusal by Assignment Judge Karen L. O’Connor by
Petitioner Esposito (impropria (sic) persona),” and “Show Cause Why Current Rule 32
Proceedings Shall Not Be treated as the Original Rule 32 After Assignment Judge Errors in a
Docket Code 167

Form R000A

Page 1

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR2014-001312-001 DT
CR2013-442655-001 SE

02/27/2020

Premature Ruling before Rule 32 Management Order for Discovery is Obtained Thereby
Depriving Petitioner Esposito Due Process Rights on Appeal.”
IT IS FURTHER ORDERED denying all other requests for relief.

Honorable Peter A. Thompson
Judge of the Superior Court

Docket Code 167

Form R000A

Page 2

#
>'■

'

>Y
NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.
.S

/

IN THE

Arizona Court of Appeals
Division One
STATE OF ARIZONA, Appellee,
v.
RALPH F. ESPOSITO, Appellant
'

No. 1 CA-CR15-0122
FILED 11-19-2015

/•

i

Appeal from the Superior Court in Maricopa County
No. CR 2014-001312-001
The Honorable Karen L. O'Connor, Judge
AFFIRMED
COUNSEL
Arizona Attorney General's Office, Phoenix
By Joseph T. Maziarz
Counsel for Appellee
Maricopa County Public Defender's Office, Phoenix
By Terry J. Adams
Counsel for Appellant
Ralph F. Esposito, Safford
Appellant

r'

(

STATE v. ESPOSITO
Decision of the Court

/
/

MEMORANDUM DECISION
Judge Samuel A. Thumma delivered the decision of the Court, in which
Presiding Judge Lawrence F. Winthrop and Judge Donn Kessler joined.

THUMMA, Judge:
This is an appeal under Anders v. California, 386 U.S. 738 (1967)
and State v. Leon, 104 Ariz. 297 (1969). Counsel for defendant Ralph F.
Esposito has advised the court that, after searching the entire record,
counsel has found no arguable question of law and asks this court to
conduct an Anders review of the record. Esposito was given the opportunity
to file a supplemental brief pro se, and has done so, including a first and
second addendum. This court has reviewed the record and has found no
reversible error. Accordingly, Esposito's convictions and resulting
sentences are affirmed.

1fl

FACTS1 AND PROCEDURAL HISTORY
%

1f2

One morning in September 2013, C.F.2 left her 18-month old
daughter, F.F., and mother-in-law, C.S., in her car while she went into a
grocery store. While she was in the store, Esposito got into the driver's seat
and drove away with both F.F. and C.S. still inside. He never said a word,
despite C.S. hitting him and trying to get him to let them go. After about
ten minutes, police stopped Esposito, surrounded the car with guns drawn,
pulled Esposito from the car, arrested him and liberated F.F. and C.S.

1f3

The State charged Esposito with theft of means of
transportation, a Class 3 felony, kidnapping, a Class 2 felony, and
kidnapping, a Class 2 felony and a dangerous crime against children. The
superior court ordered a competency evaluation and, after both doctors

1 On appeal, this court views the evidence in the light most favorable to
sustaining the conviction and resolves all reasonable inferences against the
defendant. State v. Karr, 221 Ariz. 319,320 ^ 2 (App. 2008).
2 Initials are used to protect the victims' privacy. State v. Maldonado, 206
Ariz. 339,341 n.l f 2 (App. 2003).

2

1

STATE v. ESPOSITO
Decision of the Court
opined to his competency, the court found him competent.3 On March 13,
2014, one week before the scheduled trial and two weeks before the last day,
the State indicted Esposito with the same charges and dismissed the
original case. The court set trial in the new case for June 2014. Before trial,
Esposito asked to represent himself. After an appropriate colloquy with
Esposito, the court found his waiver of counsel was knowing, intelligent
and voluntary and directed that Esposito could represent himself.
At trial, Esposito gave a four-sentence opening statement. He
did not conduct cross-examination of any of the State's 10 witnesses (C.F.,
her husband, C.S. and seven police officers). Esposito elected not to testify
after the court explained the ramifications of the decision, did not request
any jury instructions besides a lesser-included offense to theft of means of
transportation, did not make a motion for judgment of acquittal, chose not
to give a closing argument after the court explained the ramifications and
chose not to present argument at the aggravation phase.

14

15

During closing argument, the State remarked:
This has been a rather unusual case, as you may
have figured out, ladies and gentlemen, in that
the defendant didn't testify, didn't present any
witnesses, and as the Judge told you from the
outset, the defendant doesn't need to do that....
So there is nothing improper about the way the
trial has proceeded, although it is a little bit
unusual. ... At the same time, while it can't be
held against the defendant that he chose not to
testify or not to present any witnesses on his
behalf, the Judge also told you in the final
instructions that you have, that were read to you
this morning, that you are not to be influenced
by sympathy or prejudice.

Immediately after the State's closing, at a sidebar, the superior
16
court indicated these statements warranted a mistrial. After the court told
Esposito that her inclination was to "declare a mistrial and start the trial
over again," Esposito responded, "I really didn't have no concerns. I mean,

A

Documents from Esposito's original case number, CR 2013-036093, are not
a part of the record on appeal. However, this court finds them helpful and
therefore takes judicial notice of the pretrial minute entries. See State v.
Valenzuela, 109 Ariz. 109,110 (1973).
3

\

STATE v. ESPOSITO
Decision of the Court
I am not asking for a mistrial at all." Even after his advisory counsel advised
him to ask for the mistrial, Esposito refused, saying, "I have my reasons,
but basically Tm fine with everything. That's all I have to say." Given this,
no mistrial was declared.
After the close of evidence, final instructions and argument,
the jury deliberated and found Esposito guilty as charged. The jury also
found the kidnapping was a dangerous crime against children and that F.F.
was less than 12 years old and Esposito was at least 18 years old at the time
of the offense.

17

At sentencing, Esposito admitted to a prior felony conviction
and addressed the court, maintaining his innocence and asking for
concurrent minimum terms. After considering the presentence report, the
competency evaluations and both aggravating and mitigating factors, the
court sentenced Esposito to mitigated prison terms for all three counts, each
found to be non-dangerous and non-repetitive. Counts one and two are
" concurrent to one another, with presentence incarceration credit of 337
days,4 with the sentence on count three to be served consecutively to counts
one and two.

18

Esposito timely appealed from his convictions and resulting
19
sentences. This court has jurisdiction pursuant to Arizona Revised Statues
(A.R.S.) sections 12-120.21(A)(1), 13-4031, and -4033 (2015) s
DISCUSSION
This court has reviewed and considered counsel's brief and
110
appellant's pro se supplemental brief and addenda, and has searched the
entire record for reversible error. See State v. Clark, 196 Ariz. 530, 537 f 30
(App. 1999). Searching the record and briefs reveals no reversible error.
111
The State originally brought Esposito's case in 2013, but then
brought the same charges to a grand jury in 2014 and indicted him. Then
the State dismissed the 2013 case without prejudice, over Esposito's
objection, and proceeded under the timeline^ of the 2014 indictment.
"Because Esposito's proper remedy for a potential violation oTthe~speedy
4 Although the record suggests that the proper presentence incarceration
credit may have been less than 337 days, there is no challenge on appeal
that the credit he was given was excessive.
5 Absent material revisions after the relevant dates, statutes and rules cited
refer to the current version unless otherwise indicated.
4

STATE v. ESPOSITO
Decision of the Court
trial rule was a special action or motion to reconsider in the 2013 case, see
^rfTv~Garcia, 234 Ariz. 577, 579 | 9 (App. 2014) (citing cases), this court
lacks jurisdiction to address any such issue in this appeal.
The record shows Esposito was either represented by counsel
at all staged of the proceedings or that he knowingly, intelligently and
voluntarily waived his right to counsel and elected to represent himself.
The evidence admitted at trial constitutes substantial evidence supporting
Esposito's convictions. From the record, all proceedings were conducted in
compliance with the Arizona Rules of Criminal Procedure. The sentences
imposed were within the statutory limits and permissible ranges.

1fl2

Esposito raises several arguments in his pro se supplemental
brief and addenda, which this court addresses as follows.

1fl3
I.

Esposito Has Not Shown Fundamental Error Resulting In
Prejudice By The Superior Court Not Granting A Mistrial.

Esposito challenges the State's closing argument. He argues
H14
that he refused to ask for a mistrial, even at the superior court's prompting
and against his advisory counsel's advice, because he was under duress
from potential threats made by fellow inmates that assaulted him in the jail
before trial.
"The prosecutor who comments on defendant's failure to
testify violates both constitutional and statutory law." State v. Hughes, 193
Ariz. 72, 86 63 (1998). The superior court suggested a mistrial based on
the State's comments in closing about Esposito's failure to testify and offer
any evidence. Because Esposito did not make a timely objection, this court
reviews for fundamental error. See id. at 86 1f 62; see also Ariz. R. Crim. P.
21.3(c).6 "Accordingly, [Esposito] bears the burden to establish that (1) error
exists, (2) the error is fundamental, and (3) the error caused him prejudice."
State v. James, 231 Ariz. 490,493 ^ 11 (App. 2013) (citations omitted).

1fl5

Assuming the State's comments supported an unfavorable
1116
inference against Esposito and therefore resulted in fundamental error, see
State v. Ramos, 235 Ariz. 230,235 Tf 13 (App. 2014); see also A.R.S. §13-117(B),
Esposito has not shown resulting prejudice. The State offered sufficient
evidence for each element of each charge, and Esposito did not offer any

C6AV

ou gh given Esposito's statements at sidebar}) the doctrine of invited
error could preclude his argument on appeal, see State v. Logan, 200 Ariz.
564, 566
11 (2001), on this record, the court analyzes the issue for
fundamental error resulting in prejudice.

5

,

STATE v. ESPOSITO
Decision of the Court
alternative explanation, theory or defense, cross-examine any witness or
make a closing argument. The court also gave him the opportunity to seek
a mistrial, telling him, "I am going to leave it to you and respect your
decision as to whether or not you want to mistry this case. If you do request
a mistrial, I will grant it." Esposito refused multiple times. On this record,
Esposito has not shown that the State's comments constituted fundamental
error resulting in prejudice.
II.

The Record Does Not Support Esposito's Radiation Poisoning
Assertion.

Esposito makes several arguments stemming from what he
considers to be electro-magnetic radiation poisoning of his brain. A
thorough examination of the record, however, reveals no evidence of
radiation poisoning. Therefore, he cannot support his claimed violations of
the Fourth, Fifth or Eighth Amendments to the United States Constitution.

Wm

Relatedly, Esposito argues that his radiation condition went
undiagnosed, so he was not competent to assist in his own defense. Again,
however, the record reveals no evidence of radiation poisoning. Moreover,
Esposito went through competency evaluation before trial and the court
found he was competent and able to assist in his own defense, relying on
the consistent opinions of two doctors. Additionally, when Esposito asked
to represent himself, the court conducted a proper colloquy and determined
Esposito's waiver of counsel was knowing, intelligent and voluntary,
findings supported by the record. See State v. Evans, 125 Ariz. 401, 403-04
(1980) (holding defendant properly waived counsel, even after being
diagnosed "as a paranoid schizophrenic" during competency proceedings).
The superior court, therefore, did not err.

V»

III.

Esposito Has Not Shown His Sentence Was Illegal.

1119

Esposito argues the 10-year mitigated sentence for
kidnapping, a Class 3 felony, and dangerous crime against children was
excessive and therefore illegal. The superior court correctly used A.R.S. §
13-705(D) to guide sentencing based on his conviction.

1T20

The Eighth Amendment to the United States Constitution
"'does not require strict proportionality between crime and sentence' but
instead forbids only extreme sentences that are 'grossly disproportionate to
the crime.'" State v. Berger, 212 Ariz. 473,476 13 (2006) (quoting Ewing v.
California, 538 U.S. 11, 23-24 (2003)). To determine whether a sentence is so
lengthy that it is considered cruel and unusual under the Eighth
Amendment, this court "first determines if there is a threshold showing of
6

STATE v. ESPOSITO
Decision of the Court
gross disproportionality by comparing the gravity of the offense and the
harshness of the penalty." Id. at 476 1 12 (citation omitted). "A prison
sentence is not grossly disproportionate, and a court need not proceed
beyond the threshold inquiry, if it arguably furthers the State's penological
goals and thus reflects a rational legislative judgment, entitled to
deference." Id. at 477 1 17 (citation omitted).

If21

The "dangerous crime against children" sentencing
enhancement currently codified in A.R.S. § 13-705 "reflects a rational
legislative judgment, entitled to deference." See id. at 477-78 H 17, 22-23;
see also State v. Williams, 175 Ariz. 98,102-03 (1993) (noting Legislature "was
attempting to respond effectively to those predators who pose a direct and
continuing threat to the children of Arizona. The lengthy periods of
incarceration are intended to punish and deter those persons, and
simultaneously keep them off the streets and away from children for a long
time."). Esposito's mitigated 10-year sentence was not excessive under the
Eighth Amendment. Indeed, that sentence was the shortest possible
sentence the court had the power to impose.

f22

Esposito argues that at the sentencing hearing, the superior
court orally sentenced him to three concurrent sentences, rather than only
counts one and two being concurrent to each other, as stated in the resulting
minute entry. Esposito is correct that, when the oral pronouncement of the
sentence is inconsistent with the minute entry, the oral pronouncement
controls. See State v. Ovante, 231 Ariz. 180, 188 1 38 (2013). As applied,
however, the oral pronouncement of Esposito's sentence, based on the
transcript of the hearing, is consistent with the minute entry, meaning the
discrepancy Esposito claims does not exist.
IV.

Witness Competency.

123
Relying on A.R.S. § 12-2202, Esposito argues the superior
court should not have allowed C.S. to testify because she has Alzheimer's
disease, and therefore was of unsound mind at the time she was called to
testify. Because A.R.S. § 12-2202 only applies to civil actions, it is
inapplicable here. A witness is only incompetent to testify "if he or she is
unable to understand the nature of an oath, or perceive the event in
question and relate it to the court." State v. Peeler, 126 Ariz. 254, 256 (App.
1980); see also A.R.S. § 13-4061; Ariz. R. Evid. 601. "The credibility of
witnesses is a matter for the jury." State v. Canez, 202 Ariz. 133, 149 1 39
(2002). Therefore, any contradictions or inconsistent testimony go to the
credibility, not competency, of a witness. Peeler, 126 Ariz. at 256.

7

i

STATE v. ESPOSITO
Decision of the Court

124

Esposito claims C.S. was incompetent to testify solely because
she has Alzheimer's disease. Not so. The record shows C.S. was able to
understand the oath, was able to understand and respond to questions
asked of her, and asked for clarification when she needed it. C.F. testified
that C.S. had Alzheimer's at the time of trial and at the time of the offense.
Her disease, then, went to her credibility as a witness, rather than her
competency to testify, and was a matter for the jury to consider. See Canez,
202 Ariz. at 149 39; Peeler, 126 Ariz. at 256.

V.

Ineffective Assistance Of Counsel.

Esposito argues that both his trial and current appellate
counsel were ineffective. Although noting Esposito represented himself at
trial, this court does not consider ineffective assistance of counsel claims on
direct appeal; it is an issue only for a Rule 32 post-conviction proceeding.
State ex rel. Thomas v. Rayes, 214 Ariz. 411, 415 20 (2007). Therefore, this
court will not consider Esposito's ineffective assistance of counsel
arguments.
125

CONCLUSION

126

This court has read and considered counsel's brief and
Esposito's pro se supplemental brief and addenda, and has searched the
record provided for reversible error and has found none. State v. Leon, 104
Ariz. 297, 300 (1969); State v. Clark, 196 Ariz. 530, 537 1 30 (App. 1999).
Accordingly, Esposito's convictions and resulting sentences are affirmed.

127

Upon filing of this decision, defense counsel is directed to
inform Esposito of the status of his appeal and of his future options. Defense
counsel has no further obligations unless, upon review, counsel identifies
an issue appropriate for submission to the Arizona Supreme Court by
petition for review. See State v. Shattuck, 140 Ariz. 582, 584-85 (1984).
Esposito shall have 30 days from the date of this decision to proceed, if he
desires, with a pro se motion for reconsideration or petition for review.

8

>. <

□

> '>•

STATE v. ESPOSITO
Decision of the Court
1124
Esposito claims C.S. was incompetent to testify solely because
she has Alzheimer's disease. Not so. The record shows C.S. was able to
understand the oath, was able to understand and respond to questions
asked of her, and asked for clarification when she needed it. C.F. testified
that C.S. had Alzheimer's at the time of trial and at the time of the offense.
Her disease, then, went to her credibility as a witness, rather than her
competency to testify, and was a matter for the jury to consider. See Canez,
202 Ariz. at 149 1 39; Peeler, 126 Ariz. at 256.
V.

Ineffective Assistance Of Counsel.

H25
Esposito argues that both his trial and current appellate
counsel were ineffective. Although noting Esposito represented himself at
trial, this court does not consider ineffective assistance of counsel claims on
direct appeal; it is an issue only for a Rule 32 post-conviction proceeding.
State ex rel. Thomas v. Rayes, 214 Ariz. 411, 415 1 20 (2007). Therefore, this
court will not consider Esposito's ineffective assistance of counsel
arguments.
CONCLUSION
f26
This court has read and considered counsel's brief and
Esposito's pro se supplemental brief and addenda, and has searched the
record provided for reversible error and has found none. State v. Leon, 104
Ariz. 297, 300 (1969); State v. Clark, 196 Ariz. 530, 537 1 30 (App. 1999).
Accordingly, Esposito's convictions and resulting sentences are affirmed.
127
Upon filing of this decision, defense counsel is directed to
inform Esposito of the status of his appeal and of his future options. Defense
counsel has no further obligations unless, upon review, counsel identifies
an issue appropriate for submission to the Arizona Supreme Court by
petition for review. See State v. Shattuck, 140 Ariz. 582, 584-85 (1984).
Esposito shall have 30 days from the date of this decision to proceed, if he
desires, with a pro se motion for reconsideration or petition for review.

. Ruth A, Willingham • Clerk of the Court
:■

E. Q :^arri0;':;;

8
\

Af

0

4sm&
w
gtmm
:* = BHM
%

JANET JOHNSON

SCOTT BALES

CLERK OF THE COURT

CHIEF JUSTICE

Supreme Court
STATE OF ARIZONA
ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007-3231

{

TELEPHONE: (602) 452-3396

May 4, 2016

RE:

STATE OF ARIZONA v RALPH F ESPOSITO
Arizona Supreme Court No. CR-15-0437-PR
Court of Appeals, Division One No. 1 CA-CR 15-0122
Maricopa County Superior Court No. CR2014-001312-001

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on May 4, 2016, in regard to the above—referenced
cause:
ORDERED: Appellant's Motion for Mental Examinations or
Incompetency Hearing into the Record in Propria Persona =
DENIED.
FURTHER ORDERED: Appellant's Motion for for (sic) Documented
Assault while Jailed in Maricopa County Towers Jail and Medical
Records of Assault by Maricopa County Sherriff Office in
Maricopa County Lower Buckeye Jail in Propria Persona = DENIED.
FURTHER ORDERED: Appellant's Motion to Petition for Review by
the Arizona Supreme Court in Propria Persona = DENIED.
A panel composed of Chief Justice Bales, Vice Chief Justice
Pelandex; and Justice Brutinel participated in the determination
of this matter.
Janet Johnson, Clerk

000135

Additional material
from this filing is
available in the
Clerk's Office.

